Appendix
1.

United States Court of Appeals for the
Seventh Circuit Order, decided
Appendix A
July 1. 2020

2.

United States District Court for the Northern
District of Illinois Eastern Division, decided
Appendix B
May 21,2019

APPENDIX A

NONPRECEDENTIAL DISPOSITION
To be cited only in accordance with Fed. R. App.
P. 32.1

United States Court of Appeals
For the Seventh Circuit
Chicago, IL 60604
Submitted June 30, 2020
Decided July 1,2020
Before
Joel M. Flaum, Circuit Judge
Michael $. Kanne, Circuit Judge
Amy C. Barrett, Circuit Judge
No. 19-3252
Lewana Howard,
Plaintiff-Appellant,

Appeal from the United
States District Court for
the Northern District of
Illinois, Eastern Division

v.

No. 18-cv-o4430

Gabriel Defratis, etal
Defendants, Appellees

Andrea R. Wood,
Judge

No. 19-3252
Order
After the Illinois Department of Human Rights
dismissed Lewana Howard’s complaints of age
discrimination and retaliation against her employer for
lack of substantial evidence, Howard sued the
investigator and his supervisors under 42 U.S.C. 1983.
She claimed the investigation was biased in favor the
employer, CVS Pharmacy. The district court dismissed
her second amended complaint, concluding that
Howard had not stated a claim under either the Due
Process Clause or the Equal Protection Clause. We
agree that her allegations do not add up to a federal
constitutional claim, and so we affirm the district court's
judgment.
We take Howard's allegations as true, drawing
inferences in her favor. See Wigod v wells Fargo Bank,
N.A., 673 F.3d 547,555 (7«» Cir. 2012). Howard filed two
Complaints with the Illinois Department of Human
Rights, alleging, first, that she experienced
discrimination in her position at CVS because of her

* We have agreed to decide the case without
oral argument the briefs and record adequately
present the facts and legal arguments, and oral
argument would not significantly aid the court. FED. R.
App.P. 34(a)(2)(C).
Page 1

No. 19-3252
age, and next, that CVS retaliated against her. The
Department began an investigation to determine
whether substantial evidence supported the charges.
See 775 ILCS 5/7A-102(d)(2). The same investigator
assessed both claims. After gathering evidence and
interviewing Howard’s employer, he concluded that
substantial evidence did not support her complaints.
See 775 ILCS 5/7A-102(d)(3). Howard then had the
option of seeking review with the Illinois Human Rights
Commission (the Departments adjudicatory arm or
bring an action in Illinois circuit court to appeal the
dismissal of her charges. Id.
Instead. Howard sued the investigator and his
supervisors in federal court for damages, asserting that
they had violated her constitutional rights, she
specifically invoked the Equal Protection Clause. In the
operative complaint, she alleged that the investigator
failed to follow state regulations for investigating
discrimination complaints and demonstrated bias in
favor of CVS. In particular, she alleged that the
investigator did not allow her to conform or crossexamine the witnesses he interviewed; asked CVS to
turn evidence late; failed to require CVS to submit
relevant evidence and ignored Howard’s evidence.
The supervisors, meanwhile, "intentionally overlooked
and ignored" the investigator’s misconduct.
Page 2

No. 19-3252
After multiple rounds of pleadings, the
defendants moved to dismiss the second amended
complaint. The district court first assessed whether
Howard stated a class-of-one-equal protection claim.
(Howard disclaimed any contention that the
investigator or supervisors mistreated her because of
membership in a protected class.) It determined,
however, that her allegations would not allow an
inference that she was targeted for mistreatment with a
rational basis. Further the investigator's question about
the consequences of the investigation for Howard’s
supervisor did not imply bias against Howard. Moreover,
to the extent that proper procedure were overlooked,
the court concluded that Howard’s allegations did not
plausibly suggest anything beyond negligence, which
did not rise to the level of a federal constitutional claim.
Construing Howard's pro se complaint
generously, the court also considered whether her
allegations could support a procedural due process
claim and concluded that they could not. Any such
claim failed because Howard had not plausibly alleged
that the state procedures failed to ensure her federal
due process rights. And to the extent she alleged a
Page 3

No. 19-3252
a violation of the permanent injunction entered in
Cooper v. Salazar, No 98 C 2930, 2001 I 1351121, *6(n.d.
III. Nov 1, 2001) requiring Department investigators to
allow claimants to cross-examine witnesses in fact­
finding conferences and prohibits the Department from
weighing evidence in making a substantial evidence
determination, she had to file a motion in that case.
Howard declined a third opportunity to amend and
chose to stand on her existing allegations. The court,
therefore, dismissed the complaint with prejudice and
entered final judgment.
On appeal, Howard's brief, though light on
argument, generally challenges the propriety of the
dismissal for failure to state a claim. We review de novo
the question whether the complaint stated a claim for
relief that is plausible on its face-i.e., that it contains
allegations, that if true, allow a reasonable inference
that the defendants are liable for a constitutional
violation. See Bell Atl. Corp v. Twombly, 550 U.S. 544,
555 (2007); Taha v. Inf I Bhd. of Teamsters, Local 781,947
F.3d 464, 469 [7'" Cir. 2020).
Although Howard emphasizes the alleged denial
of her right of equal protection she is not required to
choose a legal theory at the pleading state. Koger v.
Dart, 950, F.3d 971, 974-75 (7'h Cir. 2020) (Complaints
plead grievances, not legal theories."). Like the district
Page 4

No. 19-3252
court we consider whether she should state a claim
under the Due Process Clause because the injury
Howard claims is a denial of a fair process.
A federal due process claims depends in the first
instance on the existence of a federally protected
liberty or property interest. Mathews v. Eldridge, 424 U.S.
319,332 (1976); Simpson v. Brown City., 860 F.3d 1001,
1006 (7,h Cir. 2017). The state-established right to pursue
a discrimination claim through adjudicatory procedures
can be a property interest, the deprivation of which
implicated the Due Process Clause. See Logan v.
Zimmerman Brush Co., 455 U.S. 422, 429-333(1983);
Shvartsman v. Apfel, 138 Fed 1196, 1199 (7,h Cir. 1998)
clarifying that the protected property interest in Logan
was the discrimination claim, not the adjudicatory
procedures). An administrative investigation may be •
“adjudicatory" if like the one here it results in the
"dismissal of a civil rights claim, where the dismissal acts
as a final disposition of fhe claim on the merits subject
only to appeal." Cooper v. Salazar, 196 F. 3d 809, 815
(7th Cir. 1999).
The question turns to what process was due as a
matter of federal law. See Mathews, 424 U.S. at 333+34;
Simpson, 860 F3d at 1006. Here, Howard does not
allege that she was deprived of the hallmark of federal
due process; indeed the state provided a
Page 5

No. 19-3252
comprehensive process to investigate and adjudicate
discrimination claims filed with the Department. That
process afforded Howard the opportunity to have the
Department decide her case on its merits, so she
cannot plausibly argue that she was deprived of the
right to pursue her discrimination claim. Cf. Logan, 455
U.S. at 434-35 (dismissal of claim before merits ruling
violated due process). Howard argues that she was
deprived of meaningful review of her claim, though,
because the investigator violated numerous
Department requirements for substantial-evidence
investigations. She did not, however, avail herself of her
right to appeal the dismissal of her charges at the
substantial-evidence state, so she faces a high bar in
arguing that the state’s procedures were inadequate
to protect her due process rights. See Tucker v. City of
Chicago, 907 F.3d 487, 492 (7"1 Cir. 2018). Because the
violation of state procedural rules is not the concern of
federal due process, see id. At 495, her allegations
about the investigation do not clear that bar.
In any event, Howard's allegations that the
investigation was tainted or unfair do not cross the
threshold of plausibility. Given the presumption of a
state administrator’s impartiality. Howard needed to
allege circumstances that seriously threatened her

Page 6

No. 19-3252
chances of receiving a fair investigation-such as a
fraught personal history or a conflict of interest. (See
Hess v. Bd of Trs. of S. III. Univ., 839 F.3d 668. 675 (7,h Cir
2016). Howard’s examples of the investigator's
purported bias to the extent they go beyond
misapplying procedural rules about evidence and
deadlines) do not meet this standard. This is particularly
true in light of Howard’s concession during a district
court hearing that she was “not sure" why the
investigator would be biased against her.
Next, we consider Howard's contention that her
allegations state a claim under the Equal Protection
Claus. Because she does not allege discrimination
based on membership in a protected class, Howard's
only conceivable equal-protection claim is a class of
one claim. See Vill of Willow v. Olech, 528 U.S. 562, 56465(2000). Here, however, her allegations that the
investigator ignored evidence of discrimination and
failed to follow procedures (whereas other claimants
were treated fairly) cannot support a class-of-one
claim. The decision to dismiss her claim after an
investigation was discretional and required
individualized assessment. Allowing an equal-protection
claim on the ground that Howard received
unfavorable outcome “even if for no discernible or
articulable reason, would be incompatible with the
Page 7

No. 19-3252
discretion inherent in the challenged action.”Enquist v.
Oregon Dep’t of Agr., 553 U.S. 591, 603-04 (2008); see
Katz-Crank v. Haskett, 843 F.3d 641, 649 (7m Cir. 2016).
Finally, to the extent Howard also seek to enforce
the injunction in Cooper, 2001 WL 1351121 at *6,
requiring Department investigators to allow claimants to
cross-examine witnesses in fact-finding conferences, we
agree with the district court that this not the proper
forum. A civil-contempt motion in that case is the
appropriate channel for seeking enforcement of the
injunction. See Ohr ex rel. Nat'l Labor Relations Bd. V
Latino Exp., Inc. 776 F3d 469, 479-480 (7lh Cir. 2015); D.
Patrick, Inc. v. Ford Motor Co., 8 F.3d 455, 458-59 (7th Cir.
1993) We express no opinion on whether such a motion
would be appropriate in Howard's case.

AFFIRMED

Page 8

APPENDIX B

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION
Lewana howard
Plaintiff,
v.

)
)
)
)

No. 18-CV-04430
Judge Andrea R. Wood

Gabriel Defrates, et al., )
)
Defendants
ORDER
Defendants’ motion to dismiss for failure to state
a claim (18) is granted. Plaintiff's amended complaint is
dismissed without prejudice. Plaintiff is granted leave to
file a second amended complaint by 6/19/2019. If
Plaintiff fails by 6/19/2019 this case will be dismissed with
prejudice and closed. Plaintiff's motion to recuse
Judge Andrea R. Wood is denied (28). Status hearing
set for 5/21 /2019 remains firm. See the accompanying
statement for details.
STATEMENT
Plaintiff Lewana Howard has filed the present 42
U.S.C 1983 action against Defendants Gabriel Defrates,
Linda C. Williams and Janice Glenn, claiming a
violation of her rights under the Equal Protection Clause
of the Fourteenth Amendment to the United States
Constitution. Defendants now move to dismiss Howard’s
’ While the amended complaint uses the spelling
"Defratis." Defendants spell that Defendant’s last name
as "Defrates.” The Court adopts Defendants' spelling for
purpose s of this Order.

No. 18-CV-04430
complaint pursuant to Federal Rule ot Civil Procedure
12(b)(6) for failure to state a claim. In considering
Defendants' motion, the court accepts the facts
alleged in the amended complaint as true and draws
inferences in Howard’s favor. See Carlson v. CSX
Transp., Inc. 785 F.3d 819,826 (7th Cir. 2014).
Defendants, who are sued in their individual
capacities, are employed at the Illinois Department of
Human Rights ("IDHR"). In her amended complaint (Dkt
No. 13), Howard alleges that she filed two employment
discrimination complaints with the IDHR-claiming age
discrimination in one and retaliation in the other.
Defrates was assigned as the investigator for both
complaints. According to Howard, Defrates failed to
meet certain statutory and or court imposed
requirements while investigating her complaint. In
particular, she claims that Defrates failed to request
that her employer submit certain documents and left
unresolved several conflicts in testimony. Furthermore,
Defrates failed to interview Howard or consider
evidence she submitted in support of her complaint.
Despite Defrates's deficient investigation, Williams and
Glen review and signed off on his "Lack of Substantial
Evidence Findings."
To survive a Rule 12(b)(6) motion, “a complaint
must contain sufficient factual allegations, accepted as
true, to ‘state a claim to relief that is plausible on its
face.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) quoting
Bell Atl. Corp v. Twombly, 550 U.S. 544, 570 (2007). This
pleading standard does not necessarily require a
Page 2

complaint to contain detailed factual allegations.
Twombly, 550 U.S. at 555. Rather, "(a) claim has facial
plausibility when the plaintiff pleads factual content
that allows the court the reasonable inference that the
defendant is liable for the misconduct alleged," Adams
v City of Indianapolis, 742 F.3d 720, 728 (7lh Cir. 2014)
{quoting Iqbal, 556 U.S. at 678).
In this case, Howard’s pro se amended complaint
does not clearly allege how she believes Defendants
violated her equal protection rights. As best as the
court can discern, she seeks to raise a class-of-one
equal protection claim.2 Although equal protection
claims usually deal with "governmental classifications
that affect some groups of citizens differently than
others, "a plaintiff does not necessarily need to allege
class based discrimination to maintain such a claim.
Engquist v. Or. Dep’t of Agile, 553 U.S. 591, 601 (2008)
(international quotation marks omitted). Rather, a
plaintiff may bring a valid equal protection claim as a
“class of one" by alleging “that she has been
intentionally treated differently from others similarly
situated and that there is no rational basis for the
difference in treatment." Vill of Willowbrook v. Olech,
528 U.S. 562, 564 (2000) (per curiam)

2 In her response to Defendant's motion to dismiss,
Howard denies that she is raising a class-of-one claim.
(PL’s Opp. To Defs. Mot. To Dismiss at 2, Dkt No. 21).
Nonetheless, Howard fails to offer an alternative theory.
And despite her denial, she goes on to engage in a
class-of-one analysis.
Page 3

No. 18-CV-04430
Unable to determine whether Howard’s complaint
challenges her termination or Defendants'
investigation. Defendants analyze her class-of-one
claim under both scenarios. The Court, however,
addresses her claim only as it relates to Defendants'
investigatory conduct. That is because if Howard
worked for a private employer (as appear to be in the
case),3 the Equal Protection Clause has no application
("The Equal Protection Clause, by it express terms,
applies to States not private employers.”). And even if
she was employed by a public employer, class-of-one
claims are prohibited in the public employment
context. Engquist, 553 U.S. at 607. Necessarily then,
Howard’s claim must relate to the conduct of
Defendants in investigating her 1DHR complaints.
One way a plaintiff may show the absence of a
rational basis for differential treatment sufficient to
maintain a class-of-one claim is to identify a similarlysituated comparator. See Labella Winnetka, Inc. v . Vill
of Winnetka, 628 F3d 937, 942 (7'* Cir. 2010); Dyson v city
of Calumet City. 306 F. Supp. 3d 1028, 1028, 1037 (N.D. III. 2018) (“A plaintiff is in a class-of-one case typically
demonstrates an absence of a rational basis by
3 Howard does not specify the identity of the employer
who alleged discrimination gave rise to her IDHR
complaints. Based on exhibits attached to her
opposition to Defendants’ motion to dismiss, however it
appears her employer was CVS Pharmacy, a private
company. (See PPL.’s Oppn, Exs. A, B, E, F, Dkt. No. 21.)
Page 4

I
I

No. 18-CV-04430
identifying some similarly situated person who was
treated differently-that is, a comparator.") An
appropriate comparator “must be prima fade identical
in all relevant respects or directly comparable in all
material respects." United States v. Moore, 542 F3d 891,
896 (7th Cir. 2008). Particularly in the context of
government investigations, courts carefully apply "the
similarly-situated requirement to distinguish between
unfortunate mistakes and actionable, deliberate
discrimination." Geinosky v. City of Chicago, 675 F3d
743, 747-48 (7lh Cir. 2012).
Here, Howard fails to allege a sufficient similarlysituated comparator. Her amended complaint states
that she possesses an IDHR investigative report in which
the investigator confronted a similar situation to her and
“failed to submit evidence and there as conflicting
testimony (Am. Compl. At 4). Unlike Howard’s
investigator, that investigator drew a negative
inference against the employer as a result. (Id.) In her
opposition to the motion to dismiss, Howard attached
the investigative report as an exhibit. (PL’s Opp’n, Ex. D,
Dkt No. 21.) Bur for that investigative report to constitute
an appropriate comparator, the report would have to
be prepared by the same investigator who was
assigned to Howard’s IDHR complaint, Defrates. See
Purze v. Vill. Of Winthrop Harbor, 286 F. 3d 452, 455 (7'h
Cir. 2002) (finding that comparators who zoning
variance request were granted were not similarly
situated to plaintiff where they had their plat requests
granted by different and previous Boards"). How does
Page 5

18-CV-04430
not allege that Defrates prepared the report. And
having review the report, the court notes that the
investigator is identified by his or her initials, "DSB" those
initials do not match either Defrates initials or those of
the other two Defendants.
Nonetheless, Howard’s failure to allege a
comparator is not fatal to her claim. See Dyson 306 F.
Supp. 3d at 1037 (“Failure to identify a comparator in
the complaint is not fatal to the claim; the existence of
a comparator is not an element of the claim by simply
a type of evidence fhat may support it.”) Lacking a
suitable comparator, Howard must “allege() a pattern
of misconduct tor acts of overt hostility that exclude
any rational explanation for why local officials targeted
her to survive dismissal. Id. Even at this early state, it is
necessary for her to “negative any reasonably
conceivable state of facts that could provide a rational
basis for the classification." Miller c. City of Monona, 784
F.3d 1113, 1121 (7m Cir. 2015); see also D.B. ex rel. Kurtis
B. Kopp, 725 F.3d 681,686 (7'* Cir. 2013) )"AII it takes to
defeat the plaintiffs' claim is a conceivable rational
basis for the difference in treatment.") (emphasis in
original). Howard insist Defendants’ various
investigative failure evinced a "malicious indifference."
However, her claim of malice is merely conclusory-she
provides not facts that would demonstrate Defendants
malice or even that they specifically singled her out for
disparate treatment. Certainly, it is possible that
Defendants had some animus toward Howard that
caused them to conduct an insufficient investigation.
On the other
Page 6

No. 18-CV-04430
hand, it is also possible that Detendants simply
performed their jobs poorly. The latter possibility does
not make an actionable class-of-one claim. See
Geinosky, 675 F 3d. at 747 (explaining that class-ot-one
claims were not meant to turn "ordinary and inevitable
mistakes by federal lawsuits”); McDonald v. Village of
Winnetka. 371 F. 3d 992, 1009 (7th Cir. 2004) ("[T]he
purpose of entertaining a ‘class ot one’ equal
protection claim is not...to transform every claim for
...improper provision of municipal services or for
improper conduct to an investigation in connection
with them into a federal case,"). Because Howard’s
allegations fail to exclude that possibility, her class-ofone claim fails.
In sum, Howard’s amended complaint fails to plead
adequately that she was singled out for discriminatory
treatment without any rational explanation. Therefore,
she has not stated a class-of-one equal protection
claim and her amended complaint is dismissed.
Howard will be given leave to amend her complaint.
On a final note, Howard has also filed a motion
seeking recusal of the presiding judge from her case. In
her motion, Howard complains that this court has
stricken and reset four times a status hearing. Under 28
U.S.C. 455(a), a judge shall disqualify [herself] in any
proceeding in which [her] impartiality might reasonably
questions," the inquiry focuses on “whether a

Page 7

No. 18-cv-04430
reasonable person perceived a significant risk that the
judge will resolve the case on a basis other than the
merits." Hook v. McDade, 89 F3d 350, 354 (7th Cir. 1996).
While the Court understands Howard's frustration
concerning the rescheduling of the status hearing, it
finds no basis to believe that a reasonable person
would perceive the delay as presenting a significant risk
that this court will not resolve Howard's case on a basis
other than merits. For that reason, the Court declines to
recuse.

Dated 5/21/2019

/s/ Judge Andrea R. Wood
Judge Andrea R. Wood

Page 8

